No. 20-136
IN THE

Supreme Court of the United States
TREMAYNE T. DOZIER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,483
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 23, 2020.

/s/ Matthew S. Hellman
Matthew S. Hellman

